        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's K-25
Building Decontamination and
Decommissioning Project




DOE/IG-0854                                July 2011
                                 Department of Energy
                                    Washington, DC 20585
                                          July 13, 2011



MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                INFORMATION: Audit Report on “The Department of Energy’s K-25
                        Building Decontamination and Decommissioning Project”
BACKGROUND
The East Tennessee Technology Park (ETTP), formerly the Oak Ridge Gaseous Diffusion Plant,
began operation during World War II as part of the Manhattan Project. As the Department of
Energy's missions changed, operations at the Plant ceased and the Department began a massive
environmental remediation effort with completion anticipated in 2016. In 2001, the Department
estimated that it would decontaminate and decommission (D&D) – a process which readies a
building for demolition – both the K-25 building and its sister facility, the K-27 building, at a
cost of $460 million. In 2002, the Department developed a plan to accelerate closure of ETTP,
including a revised end date of 2008. The Department emphasized that risk reduction was a key
factor for accelerating closure, noting that the K-25 and K-27 buildings posed some of the most
serious environmental and safety risks at the site.
Because of nuclear criticality hazards, the size of the building and facility degradation, D&D of
the K-25 building is one of the most costly and technically challenging projects at ETTP. In
2004, Bechtel Jacobs Company, LLC (Bechtel Jacobs), the managing contractor at ETTP, began
the D&D of the K-25 building. This involved removing high-risk equipment containing fissile
material, segregating asbestos, purging process gases, encapsulating process equipment and
piping in foam, and disposing of thousands of converters, motors, and compressors.
We initiated this audit to determine if the Department had effectively managed the K-25 D&D
Project.
RESULTS OF AUDIT
Problems with contract administration and project management likely impacted the Department's
ability to effectively manage the many technical challenges it encountered during its attempts to
complete the K-25 D&D Project. Because of these issues, the Department, in our opinion, was
not in a position to fully grasp the ultimate cost and time required to D&D K-25, an effort on
which the Department had spent about $717 million through the end of 2010. For example, the
Department:
       Was unable to confirm that contractor reports on cost and schedule performance were
       accurate. Because the cost and schedule estimates used to measure performance in the
                                                2


       contractor's Earned Value Management System were not based on an independent
       Government cost estimate and had not been developed from the "bottom-up" as required,
       they proved to be unreliable;

       Had not performed timely analyses to evaluate the merit of outstanding issues described
       in Requests for Equitable Adjustment (REAs) submitted by the contractor from 2004 to
       2006. As a result, management may not have fully understood the scope and severity of
       the outstanding technical challenges described in the REAs, despite its periodic review of
       the Project's progress. The requests sought to increase the contract award by about
       $217 million for the D&D of the K-25 and K-27 buildings to address key issues such as
       removal of high risk equipment and the increased presence of Technetium-99
       contamination in the buildings. Timely reviews of the contractor's basis for making the
       requests would have better informed the Department of cost and schedule challenges, the
       manner in which the contractor was addressing them, and provided the opportunity to
       promptly intervene to protect the Government's interest in the Project as it evolved; and,

       Had not fully updated its $622 million cost baseline for completing the K-25 Project. As
       of February 2011, the Department had not approved a revised baseline for completing the
       Project despite its recognition that completion may not occur until 2016 and, that the total
       cost could almost double, rising to as much as $1.2 billion.

The Department's original cost and accelerated schedule estimates were significantly exceeded
due to several technical issues, including nuclear criticality hazards, the sheer size of the
building, and the building's degrading physical plant. For example, building degradation
ultimately resulted in injury to a worker, requiring a complete revision of the D&D plan to
ensure worker safety. Because of these complexities and stringent regulatory requirements, the
need to maintain firm control over this effort through strong project management controls and
practices was critical.

While we could not directly link contract and project management weaknesses to discrete cost
and schedule impacts, in our opinion, there was little doubt that these issues adversely affected
management's ability to effectively manage the burgeoning cost of the K-25 D&D Project. For
example, even though there were significant technical differences in the K-25 and K-27 cleanup
efforts, the Department relied on a joint baseline to support the $460 million cost estimate for
completing the work at both the K-25 and K-27. Attempting to manage the complex D&D
efforts for the K-25 building using a joint baseline with the K-27 building likely allowed delays
and cost impacts to go unnoticed. Based on our analysis, numerous events occurred during the
cleanup effort that should have caused management to reassess its strategy to manage K-25 and
K-27 as a single project, rather than discrete efforts. Despite the indicators of project
management shortcomings, the Department did not approve a separate baseline for K-25 until
2008, when the estimated cost for that building alone had grown to $622 million. Since that
time, the baseline to complete the D&D of the K-25 building had not been updated even though
the costs were projected to have almost doubled. An accurate baseline provides the Department
a critical tool in its effort to manage ongoing D&D efforts.
                                                 3


Further, the Department had not assigned adequate staff or provided dedicated, consistent
leadership to oversee the Project. Notably, in May 2010, an External Independent Review
pointed out that the Department had not assigned sufficient Federal staff to the Project. Even
though Department staffing models indicated that 22 full-time staffing positions were needed to
oversee K-25, only 9 staff member equivalents were actually assigned to the Project.
Additionally, the Department had not assigned a Federal Project Director dedicated solely to
K-25. Instead, a Federal Project Director was assigned to the ETTP site as a whole, and was
responsible for overseeing multiple efforts, including the K-25 cleanup; the D&D of 125 major
buildings; remedial actions on 2,200 acres and 168 release sites; and, site infrastructure services
such as fire protection, utility services, maintenance, and capital repairs. Further, there was
frequent turnover with four different Federal Project Directors since 2007.

Failure to properly address the problems in the management of the K-25 Project could result in
further delays in achieving overall site closure goals, increased safety risks to Project workers
and the environment, and continued increases in cost. In recognition of these concerns, the
Department had taken a number of contract related actions and it plans to address staffing issues.
These steps should, if successfully implemented, help to address some of the problems we
observed. However, additional action is necessary and this report includes a series of
recommendations designed to help strengthen overall management of the K-25 Project.

                                  Lessons Learned/Best Practices

Managing costly environmental remediation projects has been recognized as a problem for the
Department for many years. In our view, the ETTP experience provides a series of lessons
learned and, as a corollary, best practices which can be employed to address aspects of the
project management challenge going forward. These include ensuring that:

   1. Project baselines are updated on a real time basis, so that they maintain their
      effectiveness as a primary management tool;

   2. Contractor performance is measured against established metrics, including realistic and
      reliable cost estimates;

   3. Contract terms are kept current so that they track with project events as reflected by,
      among other things, contractor REAs;

   4. Project scopes are realistic and manageable, recognizing the technical challenges facing
      many Department environmental remediation efforts; and,

   5. Federal staffing is sufficient, in terms of size and expertise, to provide effective project
      oversight.

As we viewed the ETTP situation, these lessons related to project management execution rather
than to any identified gap in policies or procedures.
                                               4


MANAGEMENT REACTION

The Oak Ridge Office generally agreed with the report's findings and recommendations.
Management also provided information on completed and planned corrective actions. However,
management disagreed with our finding in the report that it had not evaluated the contractor's
REAs. Our review, however, showed that the Department had not reviewed $217 million of
REAs related to the K-25 and K-27 buildings submitted by Bechtel Jacobs between 2004 and
2006 until August 2007, when it was preparing to restructure the contract. Although
management periodically reviewed the Project's progress, it may not have fully understood the
scope and severity of technical challenges confronting the Project because it had not performed
timely analyses of the REAs.

Management's comments and our response are more thoroughly discussed in the body of the
report and are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Principal Deputy Assistant Secretary for Environmental Management
    Chief of Staff
REPORT ON THE K-25 BUILDING DECONTAMINATION AND
DECOMMISSIONING PROJECT

TABLE OF
CONTENTS


Management of the K-25 Building D&D Project

Details of Finding ......................................................................................................................1

Recommendations and Comments .............................................................................................8

Management and Auditor Comments ........................................................................................9

Appendices

1. Objective, Scope and Methodology ...................................................................................10

2. Prior Audit Reports ............................................................................................................12

3. Management Comments ....................................................................................................13
THE K-25 BUILDING DECONTAMINATION AND
DECOMMISSIONING PROJECT

K-25 Building D&D    The Department of Energy (Department) had not effectively
Project              managed the K-25 Decontamination and Decommissioning
                     (D&D) Project. Despite the expenditure of nearly $717 million
                     and 6 years of effort, the Department has significantly
                     exceeded its estimated cost and schedule in completing the
                     D&D of the K-25 building. The Department currently
                     estimates that the Project, planned for completion in 2008,
                     could extend to 2016. Further, the total cost for the Project,
                     originally estimated at $460 million for the D&D of both the
                     K-25 and K-27 buildings, could cost as much as $1.2 billion
                     for the K-25 building alone. This estimate is significantly
                     higher than the baseline approved in February 2008, which
                     estimated the D&D costs for K-25 to be about $622 million.

                     The technical challenges encountered in the D&D of the K-25
                     building, including nuclear criticality hazards, the sheer size of
                     the building, and the building's extensive degradation,
                     significantly contributed to cost and schedule growth.
                     However, despite the importance of this effort and the serious
                     environmental risks associated with it, inadequate contract
                     administration and project management of the D&D of the
                     K-25 building likely impacted the Department's ability to
                     effectively manage the challenges it encountered and, in our
                     opinion, prevented it from fully understanding the ultimate cost
                     and time required to D&D the K-25 building.

Administration and   The Department had not effectively administered the East
Management of        Tennessee Technology Park (ETTP) closure contract as it
K-25 D&D             related to the K-25 Project and had not effectively
                     implemented project management controls over the D&D of
                     K-25. Additionally, the Department had not ensured consistent
                     project management leadership over the K-25 Project nor
                     provided adequate staff to oversee the Project. Although we
                     could not directly link these weaknesses to discrete cost and
                     schedule impacts, we believe that taken together, they likely
                     had an impact on cost and progress.

                                         Contract Administration

                     The Department had not always adequately administered its
                     contract to close ETTP, especially as it related to the
                     contractor's Requests for Equitable Adjustment (REAs)
                     affecting the D&D of K-25. Since 1997, the Department has
                     awarded multiple contracts with Bechtel Jacobs Company,



Page 1                                                             Details of Finding
         LLC (Bechtel Jacobs), in an attempt to complete the D&D
         work at the site. The Department first entered into a contract
         with Bechtel Jacobs to manage ETTP in December 1997. In
         2003, the Department and Bechtel Jacobs renegotiated a cost-
         plus-incentive-fee contract. This closure contract was the
         vehicle by which the Department intended to meet its goal to
         accelerate closure of ETTP by 2008. Within one year of
         renegotiating the 2003 closure contract, the Department noted
         concerns with Bechtel Jacobs' performance in quarterly
         contract reviews. In particular, these reviews often noted
         dissatisfaction with progress on the K-25 building D&D. As a
         result, from April 2005 through March 2008, the Department
         paid Bechtel Jacobs the minimum fee allowed under the
         incentive fee contract.

         Although the Department realized that its accelerated closure
         goals would not be met, it renegotiated another contract with
         Bechtel Jacobs in 2008. At the time that the contract was
         renegotiated, Bechtel Jacobs had numerous outstanding REAs.
         For example, between 2004 and 2006, Bechtel Jacobs had
         submitted $217 million in REAs related to the K-25 and K-27
         buildings, including REAs related to removal of high risk
         equipment and the increased presence of Technetium-99
         contamination in the buildings. Although management
         periodically reviewed the Project's progress, the Department
         had not performed a timely analysis of the vast majority of the
         REAs for merit or otherwise reviewed the outstanding issues
         raised by the contractor. In discussions with management, they
         stated that the REAs were fully evaluated prior to the contract
         restructuring. Our review, however, showed that the
         Department had reviewed only $85 thousand of the $217
         million prior to 2007, and had not reviewed the remaining
         REAs submitted by Bechtel Jacobs between 2004 and 2006
         until August 2007, when it was preparing to restructure the
         contract.

                                Project Baselines

         Despite the size and complexity of the K-25 Project, the
         Department had not managed it with a separate baseline until
         2008, likely impacting the effectiveness of project management
         controls. Originally, the K-25 Project was included as a
         subproject within the overall ETTP site cleanup effort, rather
         than managed as an individual capital project under the
         Department's Project Management Order 413.3A, Program
         and Project Management for the Acquisition of Capital Assets.

Page 2                                               Details of Finding
         The ETTP site cleanup includes the K-27 building D&D, a
         facility similar to the K-25 building. The D&D of the K-25
         and K-27 buildings were included in the same baseline in an
         effort to accelerate the cleanup of ETTP. Prior to 2008, the
         Department relied on a $460 million cost estimate for
         completing the D&D of both the K-25 and K-27 efforts. Since
         initial cleanup work began, the bulk of the effort has focused
         on the K-25 building.

         Based on our analysis, numerous events occurred on the
         cleanup effort that, in our opinion, should have caused
         management to realize that D&D of both K-25 and K-27 was
         too big to be managed as one project and indicated a need to
         break it down into discrete components. These events included
         such issues as the large escalation in Project costs, significant
         slippage in Project timelines, and the aforementioned REAs
         totaling about $217 million that were submitted by the
         contractor between 2004 and 2006 regarding various cost and
         schedule impacts of the K-25 and K-27 cleanup effort. Despite
         these indicators of major Project deficiencies, it was not until
         February 2008, that the Department approved an initial
         separate baseline of $622 million for the D&D of the
         K-25 building.

         Currently, the Department does not have an updated or
         approved baseline for completing the entire K-25 D&D
         Project. In August 2009, Bechtel Jacobs informed the
         Department that the K-25 Project would cost at least $278
         million more than the $622 million baseline established in
         2008. The Department subsequently decided to end Bechtel
         Jacobs' participation at the site effective June 2011; 6 months
         earlier than scheduled due to ongoing performance issues. The
         Project was re-baselined to $787 million in September 2010, to
         reflect the contractor's exit from the site prior to completion of
         the D&D of the K-25 building. The Department's approved
         baseline includes only the work to be performed by Bechtel
         Jacobs prior to its departure from the site. Program officials
         told us that a new baseline will be approved for completion of
         the K-25 D&D only after the selection of a new contractor at
         the site. The Department estimates that the D&D of K-25 may
         not be completed until 2016 and may cost as much as $1.2
         billion.




Page 3                                                 Details of Finding
                       Earned Value Management System

         Additionally, the Department did not ensure that progress was
         being properly measured against realistic and comprehensive
         estimates. The Department relied on the contractor's Earned
         Value Management System (EVMS) to evaluate contractor
         performance. The EVMS is the primary cost and schedule tool
         used to monitor and report progress both internally to the
         contractor and externally to the Department. However,
         throughout Bechtel Jacobs' contract, the data provided from the
         EVMS did not accurately portray the status of the Project. The
         data provided was inaccurate, in part, because the Project's cost
         and schedule estimates were never adequately established or
         revised to ensure they reflected current conditions.

         Specifically, prior to the Project's start, an independent
         Government-cost estimate was not obtained to establish a
         benchmark for comparison to the contractor's cost estimate.
         Further, as situations changed significantly, a bottom-up
         estimate was not prepared to adjust the current costs of
         completing the Project. A bottom-up estimate breaks-down
         each task into smaller components, which are then rolled-up to
         develop a cost estimate for the entire task, resulting in an
         estimate that is far more accurate. Bechtel Jacobs' EVMS
         Project Controls System Description requires that a bottom-up
         estimate for completion of the Project be developed at least
         annually. Despite this requirement, a bottom-up estimate for
         the K-25 building was not performed prior to 2009. For
         example, after a D&D worker fell 30 feet through the
         building's deteriorating operating floor in 2006, Bechtel Jacobs
         installed nets and barriers to prevent failed portions of the
         operating floor from falling onto lower floors. However, the
         Department did not require a bottom-up estimate of the Project,
         despite the significant changes brought about by this incident
         and the fact that they added at least $60 million to the Project
         cost.

         Additionally, neither the Department nor Bechtel Jacobs
         developed a comprehensive, bottom-up estimate for the Project
         in developing the 2008 baseline used in the EVMS. Rather, the
         baseline was established by, in effect, zeroing out all cost and
         schedule variances, and making the actual costs incurred the
         basis of the estimate. It was not until one year later, in August
         2009, that Bechtel Jacobs performed a bottom-up estimate of
         the Project and determined it would take at least another $278
         million to complete the Project. By that time, both the

Page 4                                                Details of Finding
         Department and Bechtel Jacobs had become aware of
         deficiencies in the cost estimates being used in the EVMS, and
         realized that the reports generated from the system were not
         true indicators of the Project's status.

         In order to determine why the EVMS had not reflected the
         magnitude by which the Project was over cost and behind
         schedule, the Department initiated a review of the system. The
         review, completed in May 2010, identified failures in the
         change control process, performance measurement metrics, and
         the lack of annual bottom-up analyses. Subsequently, the
         Department approved a new baseline that it had requested from
         Bechtel Jacobs for the remainder of work to be performed
         under its contract. However, the Department did not re-review
         the EVMS system to verify that the metrics reported on the
         new baseline would provide an accurate measure of Project
         status.

                      Departmental Oversight and Staffing

         The Department had not ensured that the K-25 Project had
         consistent and adequate oversight and staffing. The
         Department had not assigned a Federal Project Director
         dedicated solely to the K-25 Project. Instead, a Federal Project
         Director was assigned to the ETTP site as a whole, and was
         responsible for overseeing multiple projects. These
         responsibilities included the D&D of 125 major buildings;
         remedial actions on 2,200 acres and 168 release sites; and, site
         infrastructure services such as fire protection, utility services,
         maintenance, and capital repairs. Additionally, there was
         frequent turnover of staff in the Federal Project Director
         position. Since 2007, four different Project directors have
         overseen the Project.

         The K-25 Project also had insufficient Federal staffing levels,
         which contributed to the inadequate oversight of the Project.
         In May 2010, an External Independent Review (EIR) identified
         inadequate Federal staffing levels on the Project. The EIR
         Team reviewed the Federal Project's calculations for staffing
         using the Office of Engineering and Construction Management
         staffing guide and model. The model showed that the Federal
         Project staff for K-25, as a separately managed Project, should
         be 22 full-time-equivalents (FTE). However, the Federal
         Project staff had only six full-time staff and an additional three
         FTEs of matrix support, for a total Federal Project staff for



Page 5                                                 Details of Finding
                    K-25 of nine FTEs. Accordingly, the EIR Team concluded that
                    the Federal Project was severely understaffed. At the
                    recommendation of the EIR Team, the Department ran its own
                    staffing model of the entire ETTP cleanup effort and identified
                    the need for 63 additional Federal staff to meet the
                    Department's minimum staffing requirements to adequately
                    oversee work performed under the Bechtel Jacobs contract.
                    Despite these studies, the Department has only requested
                    funding for an additional 10 Federal staff. Even if the
                    additional staff is allocated solely to the K-25 Project, the
                    Project still will not meet the minimum level recommended by
                    the EIR Team to adequately manage the Project. In our
                    opinion, the frequency of changes in Federal Project
                    leadership, as well as inadequate Federal staffing levels, have
                    contributed to past Project performance problems and may
                    allow them to continue in the future.

Impact on Project   Failure to properly address the problems in the management
Risk and Cost       of the K-25 Project could result in further delays in achieving
                    overall site closure goals, increased safety risks to Project
                    workers and the environment, and continued increases in
                    Project costs. The K-25 building D&D is a critical path item in
                    the Department's site closure plan for the ETTP. When it
                    embarked upon accelerated closure in 2002, the Department
                    planned to have the ETTP site cleaned up and closed in 2008.
                    Barring further problems, the Department estimates that just
                    the D&D of the K-25 building alone will not be completed
                    until as late as 2016.

                    Further Project delays will likely increase the environmental
                    and safety risks posed by the K-25 building and other site
                    facilities. The K-25 building is a Nuclear Category 2 facility.
                    As such, it has the potential for nuclear criticality events and
                    represents a level of hazard for which significant management
                    attention is warranted thereby requiring on-site emergency
                    planning. Complicating that inherent risk is the level of
                    degradation that the building has encountered, and continues to
                    encounter on a daily basis. In both our 1998 report on
                    Decontamination and Decommissioning at the East Tennessee
                    Technology Park (ER-B-99-01, December 1998) and our 2003
                    report on Reindustrialization of the East Tennessee Technology
                    Park (DOE/IG-0623, October 2003), the Office of Inspector
                    General reported concerns with the condition of the K-25
                    building, including the leaking roof and damaged floor panels.
                    Additionally, in 2002, the Department reported its concerns
                    with the degrading facility. In particular, the Department noted

Page 6                                                          Details of Finding
                     that as a result of rapid degradation, the building was no longer
                     seismically qualified and risks to D&D workers had increased.
                     Air quality issues from mold spores and fungi have already
                     degraded the facility such that respiratory protection is required
                     for entry. According to Program officials, the Department
                     could have significantly reduced the costs to D&D the K-25
                     building had it continued to support the building's
                     infrastructure, including the replacement of the deteriorating
                     roof, prior to beginning D&D efforts on the massive building.
                     For example, building deterioration has significantly slowed
                     the pace of cleanup efforts and the Department had to
                     implement costly safety measures to protect the D&D workers
                     from the deteriorating conditions. Furthermore, as a result of
                     the continuing deterioration of the building, the K-25 D&D
                     Project was re-planned with an alternate D&D strategy to place
                     greater reliance on heavy equipment to demolish the building
                     while minimizing labor inside the building.

                     Delays in completing the D&D of K-25 have been costly. The
                     D&D of the K-25 and K-27 buildings was originally estimated
                     to cost $460 million, however, the Department currently
                     expects the D&D of only the K-25 building to cost more than
                     $1.2 billion. In addition to the increased D&D costs, the
                     Department continues to incur costs for infrastructure support,
                     such as utilities, security, fire protection, and in particular,
                     surveillance and maintenance costs. For example, the
                     surveillance and maintenance costs for the K-25 facility are
                     about $10 million per year.

Management Actions   The Department has taken significant action in the areas of
                     contract administration and project management to address and
                     correct the management weaknesses that led to cost and
                     schedule increases. After learning in August 2009 that the
                     Project would cost at least $278 million more than expected,
                     the Department sought to identify and correct deficiencies
                     which had contributed to the increase and allowed it to go
                     undetected. Specifically, the Department initiated an
                     independent fact-finding review and acted on its
                     recommendations. These actions included updating the
                     Project's estimate using a bottom-up estimate; conducting
                     weekly Project meetings to track the contractor's performance;
                     preparing a baseline change proposal to adjust the baseline in
                     order to make EVMS metrics more accurate; and, initiating a
                     special cost accounting analysis of the EVMS to determine
                     where the system failed to identify cost overruns on the



Page 7                                                             Details of Finding
                  Project. Additionally, several other reviews have been
                  performed which provided recommendations on project
                  management at the site. The Department is currently working
                  to implement those recommendations as well. The Department
                  also requested that Bechtel Jacobs prepare a plan to exit the site
                  6 months prior to the expiration of their contract. The
                  Department prepared an acquisition plan and subsequent
                  solicitation for a successor contractor.

                  According to Department officials, in its successor contract for
                  the ETTP, the Department plans to improve its overall contract
                  administration. For example, Department officials told us that
                  they plan to include contract line items for discrete areas of
                  work which will be assigned upon successful completion of
                  other discrete areas of work. According to Department
                  officials, if the contractor is unsuccessful, the Department
                  would not assign other line items. Additionally, the
                  Department has requested additional staff be dedicated to the
                  Project to increase Federal oversight, and instituted new
                  performance metrics for the K-25 building D&D processes.

                  We commend the Department's actions and believe that, if
                  fully acted upon, they will significantly improve the
                  Department's oversight and management of the K-25 Project.
                  However, we believe that additional enhancements to contract
                  and project management are needed. Specifically, the
                  Department (1) had not developed and approved a cost and
                  schedule baseline to complete the D&D of the K-25 building;
                  (2) continues to rely on the contractor's EVMS even though it
                  had not reviewed the system to verify that the information
                  reported accurately measured progress since approval of the
                  September 2010 baseline; and, (3) had not ensured that
                  consistent and adequate Departmental leadership and staffing
                  for the Project is maintained. As such, we made specific
                  recommendations to facilitate successful completion of the
                  K-25 Project.

RECOMMENDATIONS   Several additional actions are necessary to further improve
                  management of the Project and help ensure it is completed in a
                  more timely and cost effective manner. Accordingly, we
                  recommend that the Acting Manager, Oak Ridge Office
                  (ORO), ensure that:

                    1. An updated baseline is created and approved in a timely
                       manner for the follow-on contractor;




Page 8                                                        Recommendations
                     2. An EVMS review is performed to provide assurance that
                        EVMS metrics reported on the new baseline will provide
                        an accurate measure of Project status; and,

                     3. Consistent and adequate Federal project leadership and
                        staffing is maintained.

MANAGEMENT AND     Management generally agreed with the report's findings,
AUDITOR COMMENTS   but expressed concern with the portion of our report regarding
                   the Department's management and disposition of the Bechtel
                   Jacobs REAs. Specifically, ORO disagreed that it had not
                   analyzed the vast majority of the REAs for merit or otherwise
                   reviewed the outstanding issues raised by the contractor until the
                   contract was renegotiated. ORO management contended that the
                   REAs were fully evaluated prior to the contract restructuring and
                   provided the Office of Inspector General with the Pre-
                   Negotiation Memorandum and technical evaluations that were
                   performed as part of the contract negotiations to support their
                   position.

                   Our review, however, showed that the Department had not
                   reviewed nearly $217 million of REAs related to the K-25 and
                   K-27 buildings submitted by Bechtel Jacobs between 2004 and
                   2006 until August 2007, when it was preparing to restructure the
                   contract.

                   The Oak Ridge Office agreed with the report's recommendations
                   and developed corrective actions designed to further improve
                   management of the Project and help ensure it is completed in a
                   timelier and cost effective manner. Specifically, the Department
                   has awarded a contract for the remaining environmental cleanup
                   at ETTP. The contract requires the contractor to submit a plan
                   for a performance measurement baseline within 90 days of
                   completion of the contract transition. At that time, the
                   Department's Office of Construction and Engineering
                   Management will schedule a review of the proposed baseline and
                   a Baseline Change Proposal will be submitted to Department
                   Headquarters for approval. The Department will perform an
                   EVMS review of the new contractor's system and will continue
                   surveillance of the Project to ensure compliance with EVMS
                   requirements. The Department also assigned a new Federal
                   Project Director in January 2010, and intends to leave the Federal
                   Project Director in place until the Project is completed. In
                   addition, ORO is working to ensure that adequately trained and
                   certified staff is available.

                   We believe that the ORO's completed and planned corrective
                   actions are generally responsive to our recommendations.

Page 9                                    Management and Auditor Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) was effectively managing
              the K-25 Building Decontamination and Decommissioning
              (D&D) Project.

SCOPE         We conducted this audit from December 2009 through April
              2011, at Department Headquarters in Washington, DC and the
              Oak Ridge Office in Oak Ridge, Tennessee. The audit scope
              included D&D efforts on the K-25 building from 2004 through
              December 2010.

METHODOLOGY   To accomplish the audit objective, we:

                     Reviewed regulations, directives, contract
                     requirements, and performance measures relating to the
                     K-25 Building D&D Project;

                     Determined and evaluated the current status of the K-25
                     Project;

                     Reviewed the baseline and other project management
                     tools associated with the K-25 Project;

                     Evaluated internal controls associated with the K-25
                     Project;

                     Reviewed prior audits and reviews relating to the K-25
                     Project; and,

                     Held discussions with key Department and contractor
                     officials responsible for the K-25 Project.

              We conducted this performance audit in accordance with
              generally accepted Government auditing standards. Those
              standards require that we plan and perform the audit to obtain
              sufficient, appropriate evidence to provide a reasonable basis
              for our findings and conclusions based on our audit objective.
              We believe that the evidence obtained provides a reasonable
              basis for our findings and conclusions based on our audit
              objective. Accordingly, we assessed the significant internal
              controls and performance measures established under the
              Government Performance and Results Act of 1993. We
              determined that although a strategic goal related to cleanup of
              the contaminated nuclear weapons manufacturing and testing
              sites across the United States was identified, this goal does not
              specifically relate to Project management of the D&D of the
              K-25 building. Finally, since we did not rely upon automated


Page 10                                Objective, Scope and Methodology
Appendix 1 (continued)

                    data processing information to accomplish our audit objective,
                    we did not conduct an assessment of the reliability of computer
                    processed data.

                    Management waived an exit conference.




Page 11                                     Objective, Scope and Methodology
Appendix 2

                             PRIOR AUDIT REPORTS


     Reindustrialization of the East Tennessee Technology Park (DOE/IG-0623, October
     2003). The audit disclosed that since the reindustrialization program began, work on
     the site's most contaminated and unsafe buildings has been deferred while buildings
     with perceived reuse potential have been cleaned up in an effort to increase
     commercial tenants at the site. Despite this approach, the Department of Energy
     (Department) could not demonstrate that the program was operating as intended. The
     auditors concluded that the goals of the reindustrialization program were inconsistent
     with the broader programmatic objectives of the Environmental Management (EM)
     program. The auditors suggested that the Department would have improved its return
     on investment if the use of appropriated funds had been focused on efforts to
     decontaminate, decommission, and demolish the East Tennessee Technology Park's
     (ETTP) higher risk facilities. The report noted that the Department had done little to
     lessen the risks associated with K-25 and that Bechtel Jacobs Company, LLC
     reported that from 1998-2002, the number of damaged roof panels increased by 546
     percent and the number of damaged floor panels nearly doubled. Finally, the auditors
     recommended that the Assistant Secretary for EM discontinue the use of cleanup
     funds to prepare ETTP facilities for reuse, except in cases where the Community
     Reuse Organization of East Tennessee has formally agreed to accept ownership.

     Decontamination and Decommissioning at the East Tennessee Technology Park
     (ER-B-99-01December 1998). The auditors concluded that the major ongoing
     decontamination & decommissioning (D&D) project at the ETTP did not involve the
     facility which posed the greatest risks from exposure to radioactive waste, hazardous
     or toxic materials, and structural collapse. The audit disclosed that this condition
     occurred because the Oak Ridge Office (ORO) did not fully emphasize reductions of
     health, safety and environmental risks when it selected and performed D&D projects
     at the ETTP. As a result, the auditors concluded that a high-risk facility would
     continue to deteriorate, and hazards to workers and the environment would be
     increased. Also, the Department could incur $34.5 million in unnecessary
     surveillance and maintenance costs between Fiscal Years 1998 and 2002, for a
     building which poses significant risks to workers and the environment. The audit
     recommended that ORO require that D&D projects be selected and performed with
     greater emphasis on reducing health, safety, and environmental risks for workers and
     the public.




Page 12                                                               Prior Audit Reports
Appendix 3




Page 13      Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
                                                             IG Report No. DOE/IG-0854

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585
                              ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
